APPENDIX

INDEX TO APPENDICES
APPENDIXA

APPENDIXB

OPINION AND JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH
CIRCUIT (8/31/2020) .........................................................
JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT OF FLORIDA,
JACKSONVILLE DIVISION, (12/20/2017) .........................

Al

All

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 1 of9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12131
Non-Argument Calendar

D.C. Docket No. 3: 17-cv-00494-BJD-PDB
JAMEL MOBLEY,
Petitioner-Appellant,

versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(August 31, 2020)
Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and LAGOA, Circuit
Judges.

Al

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 2 of 9

PERCURIAM:
Jamel Mobley-a

Florida state prisoner serving a 35-year sentence for

attempted second-degree murder, attempted armed robbery, and aggravated
assault-appeals

the district court's denial of his 28 U.S.C. § 2254 petition. On

appeal, he argues that his trial counsel was constitutionally ineffective for failing to
preserve for appeal a challenge under Batson v. Kentucky, 416 U.S. 79 (1986), 1 to
the state's use of peremptory strikes during voir dire in his underlying criminal
proceedings. He contends that the state habeas court unreasonably applied
Strickland v. Washington, 466 U.S. 668 (1984), and that his counsel's failure to

preserve the issue was prejudicial because the Batson violation would have
warranted an automatic reversal of his conviction on appeal or resulted in a
reasonable probability that the state trial court would have reversed its rulings on
the peremptory strikes had his counsel renewed the objection. After careful
consideration and review, we affirm the district court's denial of relief.
In 2009, Mobley was charged with attempted first-degree murder, attempted
felony murder, attempted armed robbery, and aggravated assault stemming from a
failed carjacking. Two years later, a jury found him guilty of attempted second-

1

Mobley originally articulated his challenge with reference to State v. Neil, 457 So. 2d
481 (Fla. 1984). In the interest of clarity, we refer simply to Batson, given that Neil is Florida's
counterpart to Batson. See King v. Moore, 196 F.3d 1327, 1331 (11th Cir. 1999)(stating that
Neil anticipated Batson's holding by two years).

2

A2

USCA11 Case: 19-12131

DateFiled:08/31/2020

Page:3of9

degree murder, attempted felony murder, attempted armed robbery, and aggravated
assault. Thereafter, he was sentenced to serve three concurrent 30-year prison
terms in addition to a consecutive five-year sentence. Mobley appealed his
conviction, raising various issues on direct appeal.
Among the issues Mobley raised was a Batson claim. He argued that 1he
trial court erred in overruling his attorney's Batson challenge and allowing 1he
state to exercise peremptory strikes against three prospective Black jurors. The
Florida First District Court of Appeal declined to address Mobley's claim because
his attorney failed to preserve 1he issue for appeal. See Mobley v. State, 97 So. 3d
344,345 (Fla. Dist. Ct. App. 2012). As a result, the court affirmed the seconddegree murder, attempted armed robbery, and the aggravated assault convictions. 2
Mobley later filed a Florida Rule of Criminal Procedure 3.850 motion in
which he alleged, among other things, that he received ineffective assistance of
counsel because his trial counsel failed to preserve his Batson challenge. That
motion was denied based on the state habeas court's conclusion that "failure to
preserve issues for appeal does not show the necessary prejudice under Strickla,u/'
and that ''prejudice must be assessed based upon its effect on the results of the trial,

2

The state conceded that the attempted felony murder conviction was invalid under the
merger doctrine. Upon remand, the trial court struck the attempted felony murder count.
3

A3

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 4 of 9

not on its effect on appeal." Doc. 21-7 at 107 (internal quotation marks omitted).

3

The state habeas court determined that Mobley had not shown that counsel's failure
to preserve the Batson issue for appeal was prejudicial to the outcome of his trial.
The First District Court of Appeal affirmed the denial without issuing a written
opm1on.
In April 2017, Mobley filed a 28 U.S.C. § 2254 petition for a writ of habeas
corpus in the United States District Court for the Middle District of Florida. In his
petition, he raised several claims, including the Batson claim. As to the Batson
claim, the district court concluded that the state habeas court's decision to deny the
claim was not contrary to or an unreasonable application of Strickland or based on
an unreasonable determination of the facts. This appeal followed. A judge of this
Court granted Mobley a certificate of appealability on the following issue:
Whether the district court erred by denying Mr. Mobley's claim that
counsel was ineffective for failing to preserve for appeal his challenge
to the state's use of peremptory strikes, after concluding that the state
court's rejection of it was not contrary to, or an unreasonable
application of, Strickland v. Washington, 466 U.S. 668 (1984). 4
When examining a district court's denial of a § 2254 habeas petition, ''we
review questions of law and mixed questions of law and fact de novo, and findings

3

"Doc.#" refers to the corresponding numbered entry on the district court's docket.

4

We do not address Mobley's argument that the denial of the Batson challenge at trial was
error because the certificate of appealability is limited to Mobley's ineffective assistance of
counsel claim. In addition, Mobley has not challenged the district court's denial of that claim as
procedurally defaulted, so the issue has been abandoned.

4

A4

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 5 of 9

of fact for clear error." LeCroyv. Sec'y, Fla. Dep't of Corr., 421 F.3d 1237, 1259
(11th Cir. 2005). The district court's determination that the state court decision
was reasonable is reviewed de novo. Id.
Under the Sixth Amendment of the Constitution, a defendant has the right to
eftective assistance of counsel. U.S. Const. amend. VI; Strickland, 466 U.S. at
686. To establish ineffe<:tiveassistance of counsel, a defendant must show:
(1) that counsel's representation fell below an objective standard of

re.asonableness,and (2) d!at the defendant was prejudiced as a result, meaning that
there is a reasonable probability that, but for counsel's errors, the result of the
proceeding would have been different. Strickland, 466 U.S. at 688, 694.
Mobley argues that the district court erred in denying his claim that his trial
counsel was ineffective for failing to preserve for appeal his challenge to the state's
use of peremptory strikes, after concluding that the state court's rejection of it was
not contrary to, or an unreasonable application 04Strickland. In Mobley's view,
he suffered prejudice because proper preservation of the Batson challenge
(renewing the objection to the racially motivated strikes at the conclusion ofvoir
dire, before the jury was sworn in) would have resulted in either a reversal on
appeal or "a reasonable probability that the court would have realized its errors"
and would not have allowed the state to strike the three Blackjurors. Appellant's
Br. at 26. Tims, he contends, the district court erred in denying his claim. We

s
AS

USCA11 Case: 19-12131

DateFiled:08/31/2020

Page:6of9

reject Mobley's argument because it fails to recognize the role of federal courts in
reviewing habeas petitions based on postconviction claims adjudicated in state
courts.
Under the Antiterrorism and Effective Death Penalty Act ("AEDPA"), a
federal court may grant habeas relief with respect to a claim adjudicated in state
court only if the state court proceedings resulted in a decision that was
(1) "contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States" or
(2) ''based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding." 28 U.S.C. § 2254(d); Maharaj v. Sec'y
for Dep't. of Corr., 432 F.3d 1292, 1308 {11th Cir. 2005).

"A state court acts contrary to clearly established federal law if it confronts a
set of facts that are materially indistinguishable from a decision of the Supreme
Court of the United States and nevertheless arrives at a result different from its
precedent." Reese v. Sec'y, Fla. Dep't of Corr., 675 F.3d 1277, 1286 (11th Cir.
2012) (internal quotation marks omitted). A state court's decision is based on an
unreasonable application of clearly established federal law if it "identifies the
correct governing legal rule but unreasonably applies it to the facts of the particular
state prisoner's case, or when it unreasonably extends, or unreasonably declines to
extend, a legal principle from Supreme Court case law to a new context." Id.
6

A6

USCA 11 Case: 19-12131

Date Filed: 08/31/2020

Page: 7 of 9

(internal quotation marks omitted). Here, Mobley cannot establish that the state
habeas decision was contrary to clearly established federal law because the
Supreme Court has not addressed a set of materially indistinguishable facts.
Further, as discussed below, he cannot establish that the state unreasonably applied

Strickland to the facts of this case.
Under Florida law, simply objecting to the state's possibly discriminatory
strikes, and then countering any purportedly race-neutral explanation given by the
prosecution, does not suffice to preserve a Batson claim for appeal. Rather, trial
counsel must press the already-rejected challenge a second time at the conclusion
of voir dire, either by expressly renewing the objection or by accepting the jury
pursuant to a reservation of this claim. Joiner v. State, 618 So. 2d 174, 176 (Fla.
1993); see also Melbourne v. State, 679 So. 2d 759, 765 (Fla. 1996) (ruling that a
defendant "failed to preserve" a claim of discriminatory jury selection "because
she did not renew her objection before the jury was sworn").
Citing Davis v. Secy for Dep 't of Corr., 341 F .3d 1310 (11th Cir. 2003 ),
Mobley argues that he was substantially prejudiced by his counsel's failure to
preserve the Batson challenge. In Davis, this Court considered the issue of
whether an attorney's failure to preserve a Batson claim for appeal prejudiced the
defendant. 341 F.3d at 1314. We held that ''when a defendant raises the unusual
claim that trial counsel, while efficacious in raising an issue, nonetheless failed to
7

A7

USCA 11 Case: 19-12131

Date Filed: 08/31/2020

Page: 8 of 9

preserve it for appeal, the appropriate prejudice inquiry asks whether there is a
reasonable likelihood of a more favorable outcome on appeal had the claim been
preserved." Id. at 1316. In reaching this conclusion, however, we noted that
affording§ 2254(d)(l) deference-thus

requiring us to determine that the state

court's ruling was contrary to or an unreasonable application of established federal
law-was

not necessary because the state courts did not resolve the merits of

Davis's claim. Id. at 1313. But such deference is necessary in this case. Here, we
consider the issue of whether the state habeas court unreasonably applied

Strickland in concluding that counsel's failure to preserve the Batson challenge did
not result in the requisite prejudice for affording habeas relief. Accordingly, Davis
is inapposite and does not apply to this appeal. Further, Mobley has not identified
any clearly established federal law with materially indistinguishable facts and thus
cannot show that the state courts acted contrary to clearly established federal law.
We thus move on to whether the state unreasonably applied the prejudice prong of

Strickland to the facts of this case.
Florida courts have previously concluded that failing to preserve a Batson
challenge does not automatically demonstrate Strickland prejudice. In Carratelli v.

State, the Florida Supreme Court concluded that, in the postconviction context, "a
defendant alleging that counsel was ineffective for failing to object or preserve a
claim of reversible error in jury selection must demonstrate prejudice at the trial,
8

A8

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 9 of 9

not on appeal." 961 So. 2d 312,323 (Fla, 2007). In that case, the defendant
argued that his counsel was ineffective for failing to renew his objection to the trial
court's denial of his cause challenges during voir dire. Id. at 316. The Florida
Supreme Court concluded that prejudice should be measured at trial rather than on
appeal. Acwrdingly, the Florida Supreme Court held that a finding of prejudice
under Strickland requires the defendant to show that a juror was actually biased
against him. Id. at 324. In so holding, the Court specifically noted that Davis
misconstrued Florida law. Id at 321. Florida appellate courts have applied this
actual bias standard to ineffective assistance claims involving counsel's failure to
object to potentially racially motivated peremptory strikes. See, e.g., Jones v.

State, 10 So. 3d 140, 142 (Fla. Dist. Ct. App. 2009). Mobley did not attempt to
establish that a juror placed on the jury despite his Batson challenge was actually
biased against Wm. Thus, the state babe.as court did not unreasonably apply

Strickland in concluding that Mobley could not demonstrate prejudice and denying
his ineffective assistance of counsel claim.
Because Mobley cannot establish that the state court acted contrary to or
unreasonably applied clearly established federal law, the district court did not err in
denying his habeas petition.

AFFIRMED.

9

A9

USCA11 Case: 19-12131

Date Filed: 08/31/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR mE ELEVENm CIRCUIT
ELBERTPARRTUTTLECOURTOF APPEAL',BUILDING
56 F"")1h St=a. N. W.

Allonla,Goo,p30303
llavidJ,5,n;tb
Qerlr.ofC...rt

For ruJesmidfurms vis.ii
,,-w,.caJI uscourts
gp1·

August 31, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-12131-JJ
Case Style: Jamel Mobley v. Secretary, Florida Department, et al
District Court Docket No: 3:17-cv-00494-BJD-PDB

This Court requires all counsel to rue documents electronically using the Electronic Case Files ("ECF")
system, unless e:s:emptedfor good cause. Non-incarcerated prose parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.useonrts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en bane is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en bane is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and I Ith Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en bane must include in the Certificate oflnterested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en bane. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@cal 1.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Tiffany A. Tucker, JJ at (404)335-6193.
Sincerely,

DAVID J. SMITH,Clerk of Court
Reply to: Djuanna H. Clark
Phone#: 404-335-6151
OPIN-1 Ntc oflssuance of Opinion

AlO

Case 3:17-cv-00494-BJD-PDB

Document 24 Filed 05/06/19 Page 1 of 2 PagelD 1599

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

JAMEL MOBLEY,

Petitioner,
v.

Case No: 3:17-cv-494-J-39PDB

SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS
and FWRIDA ATTORNEY
GENERAL,

Respondents.

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
that pursuant to this Court's Order, filed May 3, 2019, judgment is hereby entered denying
the Petition and dismissing this case with prejudice.
Date: May 6, 2019
ELIZABETH M. WARREN,
CLERK

sl--N ~ Deputy Clerk
Copy to:
Counsel of Record
Unrepresented Parties

All

Case 3:17-cv-00494-BJD-PDB Document 24 Filed 05/06/19 Page 2 of 2 PagelD 1600
CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders:Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orden pursuant to 28 U.S.C. Section 1291: Only final orders andjudgments of district courts, or final orders
of bankruptcy courts which have been appealedto and fully resolved by a district court under 28 U.S.C. Section 158, generally are
appealable. A final decision is one that "ends the litigation on the merits andleaves nothing for the court to do but execute the
judgment" Pitney Bowes Inc. V. Mestre, 701 F.2d 1365, 1368 (11th Cir. 1983). A magistratejudge's report and recommendation
is not final and appealable until judgment thereon is entered by a district courtjudge. 28 U.S.C. Section 636(c).

(b)

In cases involving multiple parties OJ'multiple claims, a judgment as to fewer than all parties or all claims is not a final,
appealable decision unless the district court has certified the judgment for immediate review under Fed.R.Civ.P. 54(b), Williams
v. Bishop, 732 F.2d 885, 885-86(11th Cir. 1984). A judgment which resolves all issues except matters, such as attorneys' fees and
costs, that are collateral to the merits, is immediatelyappealable. Budinich v Becton Dickinson& Co. 486 U.S. 196, 201, 108 S.
Ct. 1717, 1721-22, 100 L.Ed.2d 178 (1988); LaChance v. Duffy's Draft House Inc 146 F.3d 832,837 (11th Cir. 1998).

(c)

Appeals pursuant to 28 U.S.C. Section 1292(a): Appeals are permitted from orders "granting, continuing, modifying, refusing
or dissolving injunctiollllor refusing to dissolve or modify injWJctiolll!
..." and from "[i]nterlocutorydecrees...detennining the rights
and liabilities of parties to admiralty cases in which appeals from final decrees are allowed." Interlocutory appeals from orders
denying temporary restraining orders are not pennitted

(d)

Appeals puJ"suantto 28 U.S.C. Section 1292(b) and Fed.R.App.P.5: The certification specified in 28 U.S.C. Section 1292(b)
must be obtained before a petition for pennission to appeal is filed in the Court of Appeals. The district court's denial of a motion
for certification is not itself appealable.

(e)

Appeals punuant to judicially CJ'e&ted
exceptionsto the fmality rule: Limited exceptiollllare discussed in cases including, but
not limited to: Cohen V. Beneficial Indus. Loan Con,., 337 U.S. 541,546,69 S.Ct. 1221, 1225-26,93 L.Ed. 1528 (1949); Atlantic
Fed. Sav. & Loan Ass'n v. Blythe Eastman Paine Webber Inc., 890 F. 2d 371,376 (11th Cir. 1989); Gillespie v. United States
Steel Corp., 379 U.S. 148, 157, 85 S. Ct. 308,312, 13 L.Ed.2d 199 (1964).

Time for Filing: The timely filing of a notice of appeal is mandatoryandjurisdictional. Rinaldo v. Corbett 256 F.3d 1276, 1278 (I Ith Cir.
200 I). In civil cases, FedR.App.P .4( a) and (c) set the following time limits:

(a)

Fed.R.App.P. 4(a)(l): A notice of appeal in compliance with the requirements set forth in Fed.R.App.P. 3 must be filed in the
district court within 30 days after the entry of the order or judgment appealed from. However, if the United States or an officer or
agency thereof is a party, the notice of appeal must be filed in the district court within 60 days after such entry. TIIE NOTICE
MUST BE RECEIVED AND FILED IN TIIE DISTRICT COURT NO LATERTHAN THE LAST DAY OF THE APPEAL
PERIOD - no additional days an providedfor mailing. Special filing provisions for inmates are discussedbelow.

(b)

Fed.R.App.P. 4(a)(3): "If one party timely files a notice of appeal, any other party may file a notice of appeal within 14 days after
the date when the first notice was filed, or within the time otherwise prescribed by this Rule 4(a), whichever period ends later."

(c)

Fed.R.App.P.4(a)(4):If any party makes a timely motion in the district court under the FederalRules of Civil Procedure of a type
specified in this rule, the time for appeal for all parties fUllll from the date of entry of the order disposing of the last such timely
filed motion.

(d)

Fed.R.App.P.4(a)(S)and 4(a)(6): Under certain limited circumstances, the district court may extend the time to file a notice of
appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extellllionis filed within 30 days after expiration of the
time otherwise provided to file a notice of appeal, upon a showing of excusable neglect or good cause. Under Rule 4(a)(6), the
time may be extended if the district court fmds upon motion that a party did not timely receive notice of the entry of the judgment
or order, and that no party would be prejudiced by an extension.

(e)

Fed.R.App.P.4(c):If an inmate confined to an illlltitutionfiles a notice of appeal in either a civil case or a criminal case, the notice
of appeal is timely if it is deposited in the institution's internal mail system on or before the last day for filing. Timely filing may
be shown by a declaration in compliance with 28 U.S.C. Section 1746 or a notarized statement,either of which must set forth the
date of deposit and state that first-class postage has been prepaid.

3.

FoJ'matof the notice of appeal: Form 1, Appendix ofForms to the Federal Rules of Appellate Procedure, is a suitable format. See also
Fed.R.App.P.3(c). A J2IQg notice of appeal must be signed by the appellant.

4.

Effect of a notice of appeal: A district court losesjurisdiction (authority)to act after the filing of a timely notice of appeal, except for actions
in aid of appellatejurisdiction or to rule on a timely motion of the type specified in Fed.R.App.P.4(a)(4).

